     Department of Health and Human Services

             OFFICE OF
        INSPECTOR GENERAL



�




    ‘RENDS IN RURAL HOSPITAL CLOSURE:
                1987-1991




                    JULY 1993
                        OFFICE OF INSPECI’OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct
them.

                            OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing semices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative sanctions,
or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department, the

Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and

effectiveness of departmental programs.


OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


Atlanta Region                                                                Headquarters


Ron Kalil, Co-project Leader                                                  Cathaleen Ahern

Maureen Wilce, Co-project Leader                                              Linda Moscoe

Paula Bowker

Ruth Reiser


For additional copies of this report, please contact the Atlanta Regional Office at 404-331-4108.

  Department of Health and Human Services

          OFFICE OF
      NSPECTOR GENERAL




TRENDS IN RURAL HOSPITAL CLOSURE:
            1987-1991




            JULY 1993   OEI-04-92-00441
              EXECUTIVE                         SUMMARY


PURPOSE

This report describes the phenomenon of rural hospital closure in the United States
during a 5-year period -- 1987-1991. It examines the extent, characteristics, reasons
for and impact of rural hospital closure.

BACKGROUND

The closure of general, acute care hospitals has generated public and congressional
concern. According to a number of recent studies, more hospitals are expected to
close in coming years.

We released a report in May 1989 describing the nationwide phenomenon of hospital
closure in 1987. Thereafter, we analyzed hospital closures annually to determine the
effects of the phenomenon. We issued subsequent reports on 1988, 1989, 1990 and
1991 hospital closures.

This report examines rural hospitals that closed in the United States during calendar
years 1987 through 1991. Unlike our annual hospital closure reports, it does not
combine rural and urban hospital closures. Nearly half the hospitals in the United
States are in rural areas. Proportionally more rural hospitals have closed than urban.
When a rural hospital closes, residents can be left with limited access to medical care
because there are fewer alternative sources of medical care. Rural residents must
often travel greater distances to obtain medical care.

FINDINGS

193 genera~acute carq ruralh.arpitalfclbsedover the S-yearPeriod

The average annual closure rate was 1.4 percent. During the 5-year period, 7.1
percent of rural hospitals closed. These hospital closures reduced the inpatient bed
supply in rural areas nationally by 3.4 percent. They occurred in 39 States.

Most ml    harpiiakk
                   thatclbsedweresmull

Rural hospitals that closed had an average of 39 beds compared to an average of 83
beds for all rural hospitals nationally. Only 6 hospitals that closed had more than 100
beds and no rural hospital that closed had-over 1~0 beds.

Rural hospitak thatcbsed had bw occupancymtes

Rural hospitals that closed had an average occupancy rate of 23 percent compared to
an average of 37 percent for all rural hospitals nationally.


                                            i
Average Medicare and Medicaid utilization at rural hospitals that closed was not
significantly different from all rural hospitals nationally.

Few patients wtxe afiectedby hospitalclosure

Because of the small size and low occupancy rates of rural hospitals that closed during
1987 through 1991, the average daily census in the year prior to closure was nine
patients. Of these, four Medicare and one Medicaid patient were in the rural hospital
on an average day during the year prior to closure.

Hospitalclbsureswerecausedby a combined@2ct of deci%ning
                                                       occupancy,ikggikg
revenues,and risingcosts

  �	   Occupancy is declining due to diminishing physician availability, changing
       medical practice patterns, and competition among hospitals.

  �	   Revenues are lagging due to fewer admissions, lower third-party
       reimbursement, and more uncompensated care.

  �	   Costs are rising due to increasing demands for new medical technology, skilled
       personnel, facility maintenance, renovation, and replacement.

Most patierushud enuzgencyand inpatientmedicalcare availablewithin20 miles of the
closed hospital

In three-fourths of the rural communities where a hospital closed, another general
acute care hospital was located within 20 miles of the closed hospital. Residents of 15
of 193 (8 percent) of the rural communities where a hospital closed had to travel
more than 30 miles for inpatient care.

In 82 percent of the rural communities where hospitals closed, emergency care
facilities were available within 20 miles of the closed hospital. Residents of 3 of 193
(1.5 percent) rural communities where a hospital closed had to travel more than 30
miles for emergency services.

Some wal commudes        dkvelopedalternatives
                                             for providinghealthcare local@ when
theiihospikllclosed

Although most residents in communities which lost their hospitals had inpatient and
emergency care available nearby, some residents had problems accessing needed care.
Several communities created alternatives to a hospital for providing access to care.
We report on these alternatives in two companion reports. They are (1) “Access to
Rural Health Care: Successful Community Initiatives” (OEI-04-92-00730), and (2)
“Medical Assistance Facilities” (OEI-04-92-00731).




                                            ii
                     TABLE                    OF CONTENTS



EXECUTIVE       suMMARY


INTRODUCI’ION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .    . . . . . .   1

FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . 3

Ahlent And Charatitia            Of RuralHospikd Closure


          How Many Closed? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .                . . . . . .   3

          Where Were They? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . 4

          Who Owned Them?                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . 5

          What Were The Hospitals Like?                    . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . 5

          How Many Patients Were Affected?                       . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . 8

ReasonsForRuml HmpiidClbsure


          Why Is Occupancy Declining?                   ...........           . . . . . . . . . . . . . . .
 . . . . . . .     9

          Why Are RevenuesLagging?                    ............            . . . . . . . . . . . . . . .
 . . . . . .       10

          Why Are Costs Rising?               ................                . . . . . . . . . . . . . . .
 . . . . . .       11

Impct QfRural Hqitzl            Ckixnme


          Is Inpatient Care Available? . . . . . . . . . . . . .              . . . . . . . . . . . . . . .
 . . . . . .       12

          Are Emergency Services Available?                     .......       . . . . . . . . . . . . . . .
 . . . . . .       12

          What About Access To Care In Communities Without Hospitals?
                                           . . . . .     13

suMMARY         ....................                    . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . .       13

ENDNOTES        ....................                    . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . .       14

APPENDICES


k   Methodology       .................                 . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . .       A-1

B: 1987 -1991 Rural Hospital Closures                     . . . . . . . . . . . . . . . . . . . . . . . . .
 .   . . . . B-1
                         INTRODUCTION


PURPOSE

This report describes the phenomenon of rural hospital closure in the United States
during the5-year period 1987-1991. Itexamines theextent, characteristics, reasons for
and impact of rural hospital closure.

BACKGROUND

In the past several years, the closure of general, acute care hospitals has generated
increasing public and congressional concern. Numerous questions have been raised
about the reasons for and the impact of hospital closure on the provision of health
care, as well as implications for public policy. According to a number of recent
studies, more hospitals are expected to close in coming years. The Government
Research Corporation estimates over 40 percent of all hospitals in the United States
will close or be converted to other uses by the year 2000.1

The Office of Inspector General released an inspection report in May 1989 describing
the phenomenon of rural and urban hospital closure during 1987 in the United States.
The results were presented to the Secretary and Assistant Secretaries of HHS, and to
staff of the Health Care Financing Administration (HCFA) and the Public Health
Service (PHS). The Inspector General testified before the U.S. House Ways and
Means Subcommittee on Health regarding the study findings. Many of those informed
of the study of 1987 hospital closure encouraged the Inspector General to continue
year-by-year analyses of the phenomenon to detect differences in the rate of hospital
closure and in the characteristics and circumstances of hospitals that close.
Consequently, the OIG conducted similar inspections of hospital closure for the years
1988-1991.

This report focuses on rural hospital closures. Unlike our earlier annual hospital
closure reports, it does not combine rural and urban hospital closures. Nearly half
the hospitals in the United States are in rural areas. Proportionally more rural
hospitals have closed than urban. When a rural hospital closes, residents can be left
with limited access to medical care because there are often few alternative sources of
medical care. Rural residents must often travel greater distances to obtain medical
care.

SCOPE

We examined rural hospitals that closed during calendar years 1987 through 1991.

For purposes of this study, the following definitions were used.
      Rural Fhspitak A facility located in a rural area that provides general, short-

      term, acute medical and surgical inpatient services.


      Closed Hospitak One that stopped providing general, short-term, acute

      inpatient services during 1987 through 1991. If a hospital merged with or was

      sold to another hospital and the physical plant closed for inpatient acute care, it

      was considered a closure. If a hospital both closed and reopened in the same

      year, it was not considered a closure. If a hospital closed, reopened, and then

      closed again during the years in our study, it was counted as a closure only

      once.


METHODOLOGY

To determine the extent, reasons and impact of rural hospital closure, we obtained
and aggregated information from State hospital associations, State licensing and
certification agencies, State health planning agencies, HCFA data bases, officials
associated with closed and nearby hospitals, and local public officials.

We obtained information on the characteristics of all rural hospitals and those that
closed during 1987 through 1991 from the Hospital Cost Report Information System
(HCRIS) maintained by HCFA.

We conducted this inspection in accordance with the Qua2i~ Standards for hspections
issued by the President’s Council on Integrity and Efficiency.

Appendix A describes our methodology in further detail.




                                           2

                                   FINDINGS


EXTENT AND cHARAcxERIsn              C!SOF RURAL HOSPITAL CLOSURE

How Mq       Clbsed?

  b    193 Genera~Acute Care, Rural Hospitak Closed Over The 5-year Period.

In 1987, there were more than 6,800 hospitals in the United States. Of those, 5,657
were general, short-term, acute care hospitals entered on HCFA’S data base as
participating in the Medicare program. Of those, 2,705 (48 percent) are rural and
2,952 (52 percent) are urban.


       Rural Hospitals in the U.S. in 1987                  2,705

       Closed in 1987-1991                                    193 (7.1 %)


The average annual closure rate was 1.4 percent.    During the 5-year period, 7.1
percent of rural hospitals closed.      -

The number of rural hospital closures, year by year, is illustrated below.

         I




                            RURAL HOSPITAL CLOSURES
                       ‘1           BY YEAR




                       o~   19s7    1988     1*      1990      1901

                                           Year




  b	   l%e Closed Hospitals Reduced i%e Acute Care Inpatient Bed Supply In Rural
       Areas By ~ 652 Be& -- 3.5 Percent.



                                             3

Where Were Zlwy?

  w   During The 5-year Period, Rural Hospitals Closed In 39 States.



                   Rural Hospital Closure By State




Texas had the greatest number of rural closures (37), followed by Louisiana (12),
Minnesota (1 Ii Mississippi (11), and Alabama (10).’ These 5 States represented 42
percent of the closures during the 5-year period. Appendix B lists the number of rural
hospital closures by State.




                                           4

Whoownedzkern?

  b     AHigher Percentage ~fi"vate For-~ofit Hospitak Closed In Rural Areas~an
        Did Public Or fi”vate Not-For-I+ojit Hospitals.


                                    Total Number                Number of              Percent of
      Hospital Ownership               of Rural                Closed Rural          Hospitals Which
                                     Hospitals in              Hospitals in          Closed in 1987-
                                         1987                   1987-1991             1991 By Type
                                                                                                       1
      Public                              1071                        61                   5.7
      Private Non-Profit                  1268                        83                   6.6
      Private For-Profit                   364                        49                   13.5


W7aat   Were The Ckwd Hmpitd L&?

  �	    Rural Hospitals lhat Closed Each Year Were Considerab@ Smaller l%an The
        Average Rural Hospitak Nationally.

Over the 5-year period rural hospitals that closed had an average of 39.5 beds
compared to an average of 83 beds for all rural hospitals nationally. The chart below
shows a year-by-year comparison.




                                RURAL HOSPITALS THAT CLOSED
                       lW                        WERE SMALL
                            1
                                                    34.2                    35.1

                                           81.3

                       W



                       60



                       40



                       20



                           0
                                   1$87      I&a        1933         1990     1991
                               m    ;4    Rural     ~        Closed Rural
                                          Average            Hos@tai AVWW




                                                        5

The chart below shows that closure affected a higher percentage of smaller hospitals
than larger hospitals. Only 6 hospitals that closed had more than 100 beds, and no
rural hospital that closed had over 150 beds.

                   SIZE OF RURAL HOSPITALS CLOSED IN 1987-1991


                          Total Number of        Number of Rural      Percent of Rural
          Size of         Rural Hospitals          Hospitals that      Hospitals that

         Hospital              in 1987          Closed in 1987-1991    Closed by Size


       <30 beds                    396                  79                  20.0

       30-49     beds              730                  71                   9.7

       50-99     beds              870                  37                   4.3

       100-149     beds            363                   6                   1.7

       150-199 beds                176                   0                    0

       200+ beds                   168                   0                    0


  k�     Closed Rural Hospitals Each Year Had Much Lower Occupanq Rates JT7zen
         Compared To l%e Average Occupancy Rate Of Rural Hospitals Nationally.2

During the 5-year period, rural hospitals that closed had an average occupancy rate of
23.4 percent compared to an average of 37.3 percent for all rural hospitals nationally.
The chart below shows a year-by-year compar%on.



                                  OCCUPANCYRATESWERE LOW

                          -1
                          40%. 3s.9                   35.6    37.5
                                         35.9


                          @lb­


                          zo%­


                          10% -




                           o%-




                                                6

  b	   Average Medicare Utilization At Rural Hospitak l%at Closed Each Year Was Not
       Significantly Diflerent From All Rural Hospitals Nationally.3

Overthe 5-year period rural hospitals that closed hadan average Medicare utilization
of 48.4 percent comparedto an average of 52.2 percent for all rural hospitals
nationally. The chart below shows a year-by-yea; comparison.


                                   MEDICARE          UTILIZATION
                 m%,


                 ao% -

                 40% -


                 90% -


                 20% -


                 10% -

                  o%   L
                                         I&          l&n3          ltlii


                         -    Nat)onal Rural     ~        Cloaad Rural
                              ~        AV-EUJO            Hoapltal Avaniga




  �	   Average Medicaid Utiluation At Rural Hospitals That Closed Each Year Was Not
       Significantly Diflerent From All Rural Hospitals Nationally.4

Over the 5-year period rural hospitals that closed had an average Medicaid utilization
of 10.6 percent compared to an average of 10.2 percent for all rural hospitals
nationally. The chart below shows a year-by-year comparison.


                                   MEDICAID      UTILIZATION
                 20% ,



                 1e%

                 12%
                       1
                       I




                  8%


                  4%


                  o%
                             1W7         l$ea        1929          1s90      1991

                       -     National Rural      ~        Closad Rural
                             Ho@tad Avaraga               HoapItal Avaraw




                                                     7

How Many PatientsWereAffkded?

  b    Few Patients Were Ajfected By Rural Hospital Closure.

Because of the small size and low occupancy rates of rural hospitals that closed during
1987 through 1991, the average daily census prior to closure was about nine patients.



                     WHEN RURAL HOSPITALS CLOSED,
                   HOW WY   PATIENTS WERE AFFE~ED?

            Average Number of Beds                            39.6
            Average Occupancy Rate                        X   23.3?I0
            Average Number of Patients Daily                   9.2


  }	   Four Medicare And One Medicaid Patient Were In The Rural Hospital On An
       Average Day During l%e Year &“or To Closure.

The chart below shows the number of elderly and poor affected by rural hospital
closure during the 5-year period.



                  WHEN RURAL HOSPITALS CLOSED,

             HOW MANY MEDICARE AND MEDICAID PATIENTS

                        WERE AFFECTED?


                                                Medicare             Medicaid
                                                Patients             Patients
           Average Number of Patients
            Daily                                   9.2                 9.2
           Average Medicare and
            Medicaid Utilization Rate            x 47.970            x 10.4?ZO
           Average Number of Medicare
            and Medicaid Patients Daily             4.4                 1.0




                                           8

REASONS FOR RURAL HOSPITAL CLOSURE


During the 5-year period from 1987 through 1991, we found no single reason for rural

hospital closure. Rather, the many health care professionals we interviewed in the

course of our series of hospital closure inspections suggested a number of factors

which gradually weakened the financial condition of the hospitals. As occupancy

declined, revenues lagged, but costs continued to rise. Ope;ating margins s~ran~, but

fixed costs remained and had to be supported by fewer and fewer patients.

Ultimately, there was no choice but to sell, merge with another hospital, or close the

doors.





                           &                   Declining
                                               Occupancy
           Rising
           costs
                                                              &

                       L	                Lagging
                                         Revenues

my L$ occupancy
             Declinhg?


  b    Physician Availabili~ Is A Problem In Rural Areas.

In several rural communities where hospitals closed during 1987 through 1991, the
town’s only physician retired, died, or moved his or her practice. Typically, rural
communities could find no replacement. Rural areas in general are less able to attract
and retain physicians. The smaller population base often means that a physician will
practice alone and is always on call. Many physicians find rural practice, under these
conditions, to be unattractive.

  �   People Are More Mobile.

With better roads and improved transportation there is increased access to more
distant medical facilities. Now physicians and their patients can choose a hospital on
the basis of quality or reputation rather than solely on proximity.


                                           9
  �    Physicians And Patients Lost Confidence In i%e Local Hospital.

Many of the hospitals included in this study were old and needed renovation and
modernization. They lacked the high technology diagnostic and treatment equipment
which physicians and patients value. In cases where newer and better equipped
hospitals are available nearby, physicians tend to shift their admissions to those
facilities.

Patients, too, preferred other hospitals. People want the best care available, and many
will choose a large hospital over a small one. Patients typically will choose a newer,
better equipped facility over one which shows its age.

  �    Competition Among Hospitals Is Intense.

Even in rural areas, people interviewed for this study reported that competition with
other hospitals was a factor in many of the closures. Hospitals with limited resources
are hard-pressed to compete with newer or larger hospitals which aggressively market
their services, maintain a healthy capital reserve, and offer higher, more competitive
salaries to nursing and technical staff.

  �    Practice Patterns Are Changing.

Medical advances and new technology have allowed some procedures which formerly
required a hospital stay to be performed on an outpatient basis.

  �	   Medicare Peer Review O~anizations (PRO) Are More Carefully Scrutinizing the
       Necessity Of Hospital Admissions.

The PRO’s are responsible for reviewing hospital admissions for appropriateness.  The
PRO may sanction individual physicians for unnecessary hospitalization. As a result,
physicians are more cautious in admitting marginally ill Medicare patients. Such
patients might have been admitted before the advent of PRO review.

Why Are RevenuesLa@!ng?

  �    Ikrurers Are Better Controlling Their Costs.

Both public and private insurers are pressed to control their hospital outlays. Some
have reduced the percentage of hospital charges or costs that they will reimburse.
Other have changed from charge-based reimbursement to paying a scheduled amount
per case, usually based on a diagnosis and intensity of care required.

Many hospital officials pointed out that, with these changes, payments from some
insurers no longer cover the actual cost of care. Several mentioned Medicaid in
particular.



                                            10

When payments do not cover costs, hospitals must either recoup the difference from
patients, shift the cost to another payor, or take a loss.

  �	   Patients Without Hospital Insurance, Or With Inadequate Insurance, Create
       Substantial Losses For Hospitals.

When hospitals admit patients with no insurance or only minimal coverage, hospitals
accept losses which appear on the books as “charity” and “bad debt”-- uncompensated
care. Historically hospitals covered these losses by “cost shifting” to patients who were
insured or could afford to pay. Hospitals set their charges for the better-insured
patients high enough to cover the cost of their patient’s care ~      a portion of the
uncompensated care. More and more insurers are refusing to accept these cost shifts.

  k	   Payment Differentials Based On Hospital Location Generally Resulted In Rural
       Hospitals Receiving Lower Payments 7han Urban Hospitals.

Although this practice is ending, rural hospitals received less in Medicare
reimbursements than did urban hospitals during the time of our review.

why An?   costs
              RiYirlg?

  �    New Medical Technolo~ Is A Major Capital Expense.

While beneficial in speeding up diagnosis and treatment, technology is very costly. If a
hospital fails to provide this modern equipment to physicians, they will take their
patients elsewhere. Small hospitals, with fewer patients to share the cost of such
equipment, can least afford such purchases.

  �    Labor Costs Are Increasing And Nuning And Technical StaflAre Scarce~

Shortages of skilled hospital personnel have made it difficult for hospitals to attract
and retain staff. Rural hospitals in particular have problems competing in the regional
and metropolitan markets. They must offer salaries equal to or better than suburban
hospitals to attract professionals.

  w	   Deteriorating Facilities Require Major Capital Investments To Renovate and
       Modernize.

Many hospitals that closed during 1987 through 1991 were old facilities in need of
repair and renovation. Such alterations are expensive.




                                            11

IMPACI’ OF RURAL HOSPITAL CLOSURE

In rural communities where hospitals closed during 1987 through 1991, we assessed
the availability of inpatient care and emergency setices.

k Inpaiien/tire Avai.kdk?

  �   In l%ree-foufihs Of The Rural Communities Studied, Another General Hospital Is
      Located U%hin 20 Miles Of Closed Hospitak.

As the chart shows, most people had
inpatient care available to them nearby                DISTANCE TO INPATIENT CARE
after the hospital closed.

Prior to the closure, many residents and
physicians were already bypassing the local
hospital and traveling to other nearby
facilities for care.

Residents of 15 of 193 (8 percent) rural
communities where a hospital closed must
travel more than 30 miles for inpatient
                                                             Number of lioapitak
care at another hospital.


Are EmergencyServicesAvailable?

  w   In 82 Percent (159 of 193) Of The Rural Communities Where Hospitals Closed,
      Eme~ency Facilities Were Available ?Wthin20 Miles Of Closed Hospitals.

When a hospital closes, the community
loses not only inpatient beds, but also             DISTANCE TO EMERGENCY SERVICES
emergency services.

As the chart shows, most residents of
communities which lost a hospital had an
emergency care facility available within a
20 mile radius.

Residents of 3 of 193 (1.5 percent) rural
communities which lost their hospital
during 1987 through 1991 must travel
                                                             Numbar of Hospltala
more than 30 miles for emergency services
at another hospital.




                                              12

WhatAbout Access To Hml.th CareIn RuralCommudiis ThatDo Not Have A
H-l?

  �	   Rural Communities U4thout A Hospital Can Provide Local Access To Health
       Care.

Although most residents in communities which lost their hospitals had inpatient and
emergency care available nearby, some residents had problems accessing medical care.
Several communities created alternatives to a hospital for providing access to health
care. In a separate OEI inspection, we studied six alternatives, which we called
“initiatives.” These communities assumed responsibility and demonstrated inspiration
and innovation in creating a new way for providing access to health care. Each
initiative was tailored to meet the needs and the resources available in its community.
In another OEI inspection, we studied the Medical Assistance Facility program, which
is a special hospital alternative developed by the State of Montana and HCFA. It is
currently used to provide access to inpatient and emergeney medical care in several
sites in eastern Montana. We discuss the results of these studies in two companion
reports. They are (1) “Access to Rural Health Care: Successful Community Initiatives”
(OEI-04-92-O0730), and (2) “Medical Assistance Facilities” (OEI-04-92-00731).


                                      suMMARY


Our study of rural hospitals which closed during the 5-year period 1987-1991 showed
the following.

       193 general, acute care rural hospitals closed.

       Most rural hospitals that closed were small and had low occupancy rates.

       Because of the small size and low occupancy rates of hospitals that closed, few
       patients were affected. Most patients had emergency and inpatient medical
       care available within 20 miles of the closed hospital.

       Some rural communities have developed successful initiatives to maintain access
       to health care services after a hospital has closed.




                                            13

                              EN DNOTES


1.�   Larry S. Gage, Dennis P. Andrulis, and Virginia Beers, America’s Safety Net: A
      Repoti on the Situation in Our Nation’s Metropolitan Areas. National
      Association of Public Hospitals. October, 1987.

2.�   Hospital occupancy rate is defined as the actual number of patient days divided
      by the total bed days available. National occupancy rate is defined as the sum
      of all rural hospitals’ occupancy rates, divided by the number of rural hospitals.

3.�   Average Medicare utilization of closed rural hospitals is defined as the percent
      of Medicare patient days compared to the total patient days for each hospital,
      summed and divided by the number of hospitals. National average Medicare
      utilization is the percent of Medicare utilization of each hospital, summed and
      divided by the total number of rural hospitals.

4.    Medicaid utilization is calculated in the same way as Medicare utilization.




                                           14

                             APPENDIX                   A



METHoDomGY


Extent Of Ruml Hqital     Cikuue

To determine how many rural hospitals closed during 1987 through 1991, we surveyed
State licensing and certification agencies, State hospital associations and State health
planning agencies. We also compiled Health Care Financing Administration (HCFA)
data on terminated providers in 1987-1991. When a closed hospital met the study’s
definition or when there were questions, we contacted officials associated with the
closed hospitals, officials associated with hospitals nearest to the closed hospital, and
local public officials.

To determine the number of hospitals in the United States, we used the Hospital Cost
Report Information System (HCRIS) maintained by HCFA. We included only
general, short-term, acute care hospitals under Medicare’s Prospective Payment
System (PPS) in the universe.

Charactenkia Qfl?ural HospitalClosure

To analyze characteristics of closed hospitals, we used HCFA’S HCRIS data. We used
the latest pre-closure cost reports. For example, if a hospital closed in May 1991 and
its accounting year was on a January-December cycle, we used the provider’s January
1, 1990 to December 31, 1990 report.

Reasons For And Impct Of RuralHmpital Clbsure

We obtained data for our analysis from interviews with the following sources.


�      Former hospital administrators, board members, and/or staff of closed hospitals

�      Hospital administrators and/or staff at the nearest hospitals

F      Local police and health officials

F      Local government officials

E      State health planning agencies

�      State certification and licensing agencies

�      State hospital associations





                                          A-1

           APPENDIX               B

     1987-1991   RURAL HOSP~XL    CLOSURES



II       Number Of Closures Ranked By State
                                              II




                      B-1
